      Department of Homeland Security




   Office of Health Affairs’ Management Letter for FY 2012 

        DHS Consolidated Financial Statements Audit 





OIG-13-61                                           April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      APR 4 2013

MEMORANDUM FOR: 	            Michael Murfee
                             Budget and Finance Branch
                             Office of Health Affairs

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT: 	                   Office of Health Affairs’ Management Letter for FY 2012
                             DHS Consolidated Financial Statements Audit

Attached for your information is our final report, Office of Health Affairs’ Management
Letter for FY 2012 DHS Consolidated Financial Statements Audit. This report contains
observations related to internal control deficiencies that were not required to be
reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial Statements and
Internal Control over Financial Reporting. Internal control deficiencies that are
considered significant deficiencies were reported, as required, in the Independent
Auditors’ Report, dated November 14, 2012, which was included in the DHS FY 2012
Annual Financial Report. We do not require management’s response to the
recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated March 12, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security Office of Health Affairs
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.
Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the FY
2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.
The Office of Health Affairs (OHA) is a component of DHS. We noted certain matters, related to OHA,
that are summarized in the Table of Financial Management Comments on the following pages, involving
internal control and other operational matters that are less severe than a material weakness or a significant
deficiency, and consequently are reported separately to the Office of Inspector General (OIG) and OHA
management in this letter. These comments and recommendations, all of which have been discussed with
the appropriate members of management, are intended to improve internal control or result in other
operating efficiencies. The disposition of each internal control deficiency identified during our FY 2012
audit – as either reported in our Independent Auditors’ Report, or herein – is presented in Appendix A.
We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and OHA’s management, the DHS OIG, the U.S. OMB,
the U.S. Congress, and the Government Accountability Office, and is not intended to be and should not be
used by anyone other than these specified parties.
Very truly yours,




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                       Office of Health Affairs
                             Table of Financial Management Comments
                                        September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

 Comment
 Reference   Subject                                                                      Page

FMC 12-01    Bioshield Accounts Payable Accrual                                            2
FMC 12-02    Contract Management                                                           2


APPENDIX

 Appendix    Subject                                                                      Page

    A        Crosswalk – Financial Management Comments to Active Notices of Finding and    3
             Recommendation (NFRs)




                                                  1

                                     Office of Health Affairs
                                 Financial Management Comments
                                       September 30, 2012


FMC 12-01 – Bioshield Accounts Payable Accrual (NFR No. OHA 12-01)

      Office of Health Affairs (OHA) records obligations (in the amount of funds to be transferred to
      Health and Human Services (HHS) and disbursements (in the amount of the payments made by
      HHS to vendors) in its own financial statements. At the end of each month, OHA records an
      accrual to cover the portion of expenses incurred by HHS that have not yet been recorded against
      the BioShield obligation by OHA.

      However, OHA did not have controls in place throughout fiscal year (FY) 2012 to link expenses
      (i.e., HHS Intragovernmental Payment and Collections (IPACs)) to the BioShield obligation in an
      accurate and timely manner. In addition, we noted that the FY 2011 accrual was overstated,
      resulting in an understatement of current year expenses.

      Recommendations:
      We recommend that OHA:
      •	 Continue to utilize the revised spreadsheet to calculate the BioShield accrual, which will
         streamline the overall process and reduce the amount of manual data input.
      •	 Continue to reconcile the detailed data provided by HHS to the amounts obligated in OHA’s
         financial system on a monthly basis.

FMC 12-02 – Contract Management (NFR No. OHA 12-02)

      OHA’s review of outstanding undelivered order balances is not operating effectively to ensure
      obligations are properly modified, extended or de-obligated timely. Specifically, we noted one
      BioShield contract selected for testwork, which was approximately $143,926,000, had an expired
      period of performance (POP).

      Recommendation:
      We recommend that OHA review the POP for obligations to ensure the POP is properly updated
      and/or modified as needed.




                                                 2

                                                                                                              Appendix A
                                           Office of Health Affairs
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                   Disposition1
                                                                                                  IAR                 FMC
NFR No.       Description                                                               MW         SD        NC       No.
12-01         Bioshield Accounts Payable Accrual                                                                     12-01
12-02         Contract Management                                                                                    12-02

1
  Disposition Legend:
IAR        Independent Auditors’ Report dated November 14, 2012
FMC        Financial Management Comment
MW         Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD         Contributed to a Significant Deficiency at the Department level when combined with the results of all other
           components
NC         Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
           combined with the results of all other components
NFR        Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                             3

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Health Affairs

   Assistant Secretary
   Budget and Finance Branch
   Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-61
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
